CREDIT CARD AGREEMENT VISA SIGNATURE®/VISA PLATINUM®
EFFECTIVE OCTOBER 2019
Please read and keep this Cardholder Agreement for your records. This Agreement governs your credit
card Account with us. Use of your Washington Trust Bank Account by you, or by someone authorized by
you, constitutes acceptance of the terms of this Agreement and disclosure. If you do not accept these
terms, do not use the cards and return the cards to us. We reserve the right to change the rates, fees
and terms of this Agreement at any time.
ACCOUNT USE
You promise to pay for all transactions, interest charges and fees assessed to your Account, including
any past due amounts. This Agreement is binding if you use your Account or make a payment on it.
Authorized User: If you let anyone use your Account, that person is an authorized user. You may
request a card be issued for an authorized user, and this Account may appear on the authorized user’s
credit report. Authorized users may have the same access to information about the Account. You are
responsible for all charges made by authorized users. You must notify authorized users that 1) if you
do not pay us, we may seek payment from them for charges they make or authorize; 2) we may obtain,
provide and use information about them; and 3) their use of the Account is subject to all terms of this
Agreement.
You may use your Account for the following types of consumer transactions:
1. Purchases: Buy or lease goods or services with your card. Purchases include Account Fees as well
as Transaction Fees and adjustments associated with any purchase.
2. Balance Transfers: Transfer balances to your Account from other creditors by request.
3. Cash Advances: Obtain cash from a participating financial institution or merchant, or from an
automated teller machine (ATM), write an Access Check, or purchase money orders, travelers
checks, and foreign currency redeemable for cash or transfer funds from your Account to your
Washington Trust Bank personal checking Account for Overdraft Protection. If you use your
Account for Overdraft Protection, we will automatically transfer funds from your Account (up to
your credit limit) in increments of $10.00 to cover an overdraft. The amount transferred is subject
to the cash advance interest rate and interest will begin to accrue immediately upon transfer. All
Access Checks include an expiration date printed at the top. We will honor Access Checks received
for payment before the expiration date printed on the check, provided your Account is open and
in good standing, with available credit. Access Checks without a printed expiration date will not
be honored.
LIMITATIONS ON ACCOUNT USE
Personal Use: Your Account will only be used for personal, family or household purposes. You may not
use your Account for business or commercial purposes.
Payments to Washington Trust Bank Accounts: You may not use a Cash Advance or Access Check to make
a payment to another Washington Trust credit Account.
Illegal Transactions: The use of this card for illegal transactions is prohibited. Your card and Account
may be used only for valid and lawful purposes. If you use, or allow someone else to use, the card or
Account for any other purpose, you will be responsible for such use and may be required to reimburse
Washington Trust Bank or Visa for all amounts or expenses either Washington Trust Bank or Visa pays
as a result of such use. For example, Internet gambling transactions may be illegal in your state.
Display of a payment card logo by an online merchant does not mean that the Internet gambling
transaction is legal where you conduct it. We will not be liable if you engage in illegal transactions and
we may deny authorization of any transactions identified as Internet gambling.
Credit Limit: Your credit limit is disclosed to you when you receive your card and on your monthly
statement. We may change your credit limit from time to time and we base that decision on a number
of factors such as your payment and transaction history with us and information we receive from third
parties including credit reporting agencies. The amount shown on your monthly statement as Credit
Available does not take into consideration any Purchases, Balance Transfers, Cash Advances, interest
charges, fees and any other transactions, or credits which post to your Account after the Closing Date of
that monthly statement. Such transactions could result in your credit limit being exceeded. You promise
to make Purchases, Cash Advances and Balance Transfers only up to that limit — meaning the total
outstanding balance on your Account plus authorizations at any time must not be more than your credit
limit. If you attempt a transaction which results in your total outstanding balance (plus authorizations)
exceeding your credit limit, we may respond in the following ways: 1) We may permit the transaction
without raising your credit limit; 2) We may allow the transaction but treat the amount of that
transaction that is over the credit limit as immediately due; or 3) We may decline the transaction. If
we decline the transaction we may advise the person who attempted the transaction that it has been
refused. In the case of a declined Balance Transfer or Check Cash Advance we may advise the person
presenting the Check Cash Advance that the credit has been refused or that there are insufficient funds
to pay the Check Cash Advance or Balance Transfer. If you use the Account for more than your limit, we
may charge you for all transactions without giving up our rights under this Agreement. You must pay
any amount over your credit limit immediately upon request. If we have allowed you to exceed your
credit limit in the past that does not mean that we will allow you to exceed your credit limit again.
Authorizations: Some transactions require our prior authorization. We may limit the number of
authorizations we give in a day. We may deny authorization if you are in default, if we suspect
fraudulent activity or for other reasons. We are not liable for any failure to authorize a transaction.

You are liable for any transaction we authorize even if we should not have authorized it because you
are or would be in default as a result of the transaction.
STATEMENTS AND PAYMENTS
Promise to Pay: When you use your Account or allow someone else to use it, each of you promises
to pay the total amount of the Purchases, Cash Advances or Balance Transfers whether a sales draft
is signed or not. Each of you also promises to pay any and all interest charges, fees and any other
transactions which become due on the Account.
Statements: Each month, in which you have an undisputed credit or debit balance of $1.00 or more, you
will receive a statement showing your new balance. Your statement also shows the minimum amount
you must pay and the latest day we must receive your payment. The due date is at least 25 days after
the statement date.
Minimum Payment: You must make at least the Minimum Payment Due by the Payment Due Date
shown on your statement. Your Minimum Payment Due will be either 3% of the total balance or $10.00,
whichever is greater. Payments made in any billing cycle that are greater than the Minimum Payment
due will not affect your obligation to make the next Minimum Payment, and if you overpay or if there
is a credit balance on your Account, we will not pay interest on such amounts. We may reject payments
that are not drawn in U.S. dollars or those drawn on a financial institution outside the United States. We
reserve the right to reject a payment if your Account has a credit balance as of the day we receive that
payment. Generally, credits to your Account, such as those generated by merchants or by person-toperson money transfers, are not treated as payments and will not reduce your Minimum Payment due.
Total Amount Due: You may pay your Total Amount Due at any time. Each billing cycle you must pay at
least the Minimum Payment due as shown on your monthly statement by its Payment Due Date. If you
are past due or overlimit on your Account, these amounts will be added to your Minimum Payment due.
Whole Balance Due: If you miss a payment or break one of your promises under this Agreement, we
may demand full payment of your entire balance without advance notice. The only exception is a valid
argument over a charge to your Account. We may also demand full payment if you die, if another
creditor tries to attach or seize your property or garnish your wages, or if you are past due or in default
on any other obligation to Washington Trust Bank.
Payments on Your Account: You must pay each month at least the Minimum Payment due shown on
your monthly statement by its Payment Due date. You may pay the entire amount you owe us at any
time. If you choose to make your payment by check, we may elect to process that payment as an
electronic funds transfer and each time you send a check you authorize a one-time electronic funds
transfer. However, we may also choose to process your payment made by check as a check or paper
draft. Funds may be withdrawn from your Account as soon as the same day we receive payment
instructions.
We credit payments as of the date received, if the payment is: 1) received by 5pm local time at the
address shown on the remittance slip on the front of your monthly statement; 2) paid with a check
drawn in U.S. dollars on a U.S. financial institution or a U.S. dollar money order; and 3) sent in the
return envelope with only the bottom portion of your statement accompanying it. Payments received
after 5pm local time at the remittance address on any day including the Payment Due Date, but
that otherwise meet the above requirements; will be credited as of the next day. Payments made by
5pm EST online through WTB Credit Card Tracker will be credited the same day. Credit for any other
payments may be delayed up to five days. If your Account has balances with different APRs, we will
allocate the amount of your payment equal to the Minimum Payment due to the lowest APR balances
first. Payment amounts in excess of your Minimum Payment due will be applied to balances with higher
APRs before balances with lower APRs.
Default: You will be in default of this Agreement if 1) you fail to make the required Minimum Payment
due by its Payment Due Date; 2) your total outstanding balance exceeds your credit limit; or 3) you
fail to abide by any other term of this Agreement. Our failure to exercise any of our rights when you
default does not preclude us from exercising our rights upon later default. We may require immediate
repayment if you default on this Agreement in addition to any other remedies contained in this
Agreement. If collection action becomes necessary, or if you violate this Agreement, we may bill you a
collection fee. Attorney’s fees, whether or not a suit is filed, are included in these costs.
Other Payment Terms: We can accept late payments, partial payments or payments with any restrictive
writing without losing any of our rights under this Agreement. This means that no payment, including
those marked with “paid in full” or with any other restrictive words, shall operate as an accord and
satisfaction without the prior written approval of one of our Collection Officers. You may not use a
postdated check to make a payment unless directed by a Collection Officer and sent to a specified
address. If you do postdate a payment check, we may elect to honor it upon presentment or return it
uncredited to the person that presented it, without in either case waiting for the date shown on the
check. We are not liable to you for any loss or expense incurred by you arising out of the action that we
elect to take.
Rates: Annual Percentage Rates (APRs) for your Account are listed on the Interest Rate and Interest
Charges Table. The Daily Periodic Rate is determined by dividing the Annual Percentage Rate by the
number of days in a year, rounded to the next highest hundred thousandth of a percentage point. We
reserve the right to amend these APRs.

Purchases: The APR for Purchases is a variable rate and is determined by adding a margin of 7.99% to the
Prime Rate.
Cash Advances: The APR for Cash Advances is a variable rate and is determined by adding a margin of
9.99% to the Prime Rate.
Penalty APR: The Penalty APR will vary and is determined by adding a margin of 15.99% to the Prime Rate
Variable Rates: One or more of the APRs described in this document may vary monthly based on the
Prime Rate. Rates shall be adjusted on the first day of each billing period (“Change Date”). The APR on
each Change Date shall equal the highest Prime Rate published in The Wall Street Journal on the last date
of publication in the calendar month preceding each Change Date, PLUS a Margin as described above.
Beginning on the date a rate adjustment is effective and until the next Change Date, the Daily Periodic Rate
then in effect will be applied to the balance in the Account to determine the Finance Charge. An adjustment
in the APR applies to new cash advances, balance transfers, credit purchases, and other charges. An
increase or decrease in the Prime Rate will cause an increase or decrease in the APR and may increase the
amount and number of minimum payments. The rate of Finance Charge shall not exceed the maximum
rate permitted by law, if any is applicable. If the Wall Street Journal does not publish the U.S. Prime Rate or
if it changes the definition of the U.S. Prime Rate, we may substitute another index.

your billing with the providers of those services. If we believe you have authorized a transaction or are
attempting to use your Account after you have requested to close the Account, we may allow the transaction
to be charged to your Account.
Refusal to Honor Your Account: We are not liable for any refusal to honor your Account — this can include
both a refusal to honor your Account number or a check written on your Account. We are not liable for the
retention of your card by us, any financial institution or any provider of goods and services.
Changing of Our Agreement: We may change the terms or amend this Agreement at any time. We may do
so by adding, deleting or changing provisions of this Agreement. We may increase or decrease any or all
of your APRs, including any Promotional APRs. When we amend this Agreement we will comply with State
and Federal Regulations that are in effect at that time. APR increases will not impact existing balances
unless you are more than 60 days late with a payment. If an amendment to this Agreement gives you the
opportunity to reject the change, and if you reject the change in the manner provided in such amendment,
we may terminate your right to receive credit and we may ask you to return your cards and/or access
checks or other credit devices as a condition of your rejection. We may replace your card with another card
at any time.

Penalty APR: If at any time you are more than 60 days late in making the required monthly Minimum
Payment, we may elect to increase your Purchase, Cash Advance and/or Balance Transfer APRs, including
any Promotional Rate APR. When you make at least your monthly payment on or before the due date for
six consecutive months immediately following the rate increase to the penalty rate, your APR will return to
the previous rate.

Security Interest: To secure payment and performance obligations under this credit card Account, we may
take a security interest in one of more of your personal assets to include, but not limited to, a personal
savings Account or time certificate of deposit. Your intention to grant a security interest will be supported
by a separate security agreement. The annual percentage rate will not take into consideration required
deposits. If you sign a Security Agreement with Washington Trust Bank and grant the Bank a security
interest in something other than your primary residence, that collateral may also secure your indebtedness
under your Account.

Grace Period: You will have a grace period on New Purchases provided you Pay in Full by the statement due
date. New purchases are subject to finance charges if the prior statement balance was not paid in full. You
do not have a Grace Period on Cash Advances, Overdraft Protection or Balance Transfers.

Credit Reports: You authorize us to obtain information about you, including information from third
parties such as credit reporting agencies and information about your transaction history with us and other
companies.

Periodic Finance Charges: Your balance subject to Finance Charge shown on your billing statement is
arrived at by completing the following calculations: We calculate a portion of the Finance Charge on your
Account by applying the Daily Periodic Rate to the Average Daily Balance of your Account. To compute the
Average Daily Balance, we take your beginning balance, add any new transactions or other debits, subtract
any payments or other credits. Then, we sum daily balances for the billing cycle and divide the total by
the number of days in the billing cycle. This gives us the Average Daily Balance. We do this calculation
separately for Purchases and Cash Advances. For Purchases, the beginning balance is calculated from the
posting date. If the previous balance on the statement was paid in full during the first 25 days of the billing
cycle, the Average Daily Balance is considered $0. For Cash Advances and Balance Transfers, the beginning
balance is calculated from the transaction date. In addition, we calculate a portion of the Finance Charge
by applying a Cash Advance Fee to each Cash Advance.

If you believe we have furnished inaccurate or incomplete information about you or your Account to a credit
reporting agency, write us at Washington Trust Bank, Attn: Credit Card Services, P.O. Box 2127, Spokane,
WA 99210-2127 and explain what information you believe is inaccurate or incomplete. Please include your
name, address, phone number and Account number in your correspondence.

Cash Advance and Balance Transfer Fees: For each Cash Advance, we will charge the Cash Advance Fee.
Balance Transfers will also incur Cash Advance Fees unless otherwise stated.
Overdraft Protection Transfer Fee: For each Overdraft Protection transfer we will charge the Overdraft
Protection Transfer Fee.
Minimum Finance Charge: Whenever the calculated Finance Charge is less than $1.00, we will assess a
minimum Finance Charge of $1.00.

Negative Information Disclosure: We may report information about your Account to credit bureaus. Late
payments, missed payments or other defaults on your Account may be reflected in your credit report.
Sign Your Card: You should sign your card before you use it.
Telephone Monitoring: We may listen to and record telephone calls between you and us for the purpose
of monitoring and improving the quality of service you receive. Where you have provided a cell phone
number directly to us, or placed a cell phone call to us, you consent and agree to accept collection calls or
texts to your cell phone from us. For any telephone or cell phone calls we place to you, you consent and
agree that those calls may be automatically dialed and/or use recorded messages.
Foreign Currency Transactions/Fees: If you make a transaction in currency other than U.S. dollars, Visa
will convert the charge or credit into a U.S. dollar amount. The conversion rate on the processing date may
differ from the rate on the date of your transaction. We will charge you a Foreign Currency Transaction Fee,
if applicable, of the U.S. dollar amount for each converted purchase and cash advance transaction.

Late Fees: A Late Fee will be added to the balance of your Account for each billing period you fail to pay, by
its due date, the Minimum Amount Due.

Procedures for Opening a New Account: To help the government fight the funding of terrorism and money
laundering activities, Federal law requires all financial institutions to obtain, verify and record information
that identifies each person who opens an Account. What this means for you: When you open an Account, we
will ask for your name, address, date of birth and other information that will allow us to identify you. We
may also ask to see your driver’s license or other identifying documents.

Returned Payment Fee: A Returned Payment Fee will be added to your Account for any payment on your
Account that is returned to us unpaid.

Waiver: We can waive or decline to enforce any of our rights under this Agreement at any time without
affecting any of our rights under this Agreement.

Copy Charge/Card Replacement Charge: Your Account will be charged a copy charge of $2.00 per page for
copies of a statement or check, and $5.00 for a copy of a sales receipt you request from us, except those
items associated with a billing dispute. You may be assessed a fee $3.00 for replacing your credit card for
reasons other than card expiration or you report your card stolen.

We May Sell Your Account: We may at any time and without notice to you, sell assign or transfer your
Account, any sums due on your Account, this Agreement, or our rights or obligations under your Account or
this Agreement to any person or entity. The person or entity to whom we make any such sale, assignment
or transfer shall be entitled to all of our rights and/or obligations under this Agreement, to the extent sold,
assigned or transferred.

OTHER FEES
Annual Membership Fee: None.

Rates, fees and terms may change: Washington Trust Bank may change the rates, fees and terms of your
Account at any time for any reason. These reasons may include competitive or market-related factors. If
we make a change for any reason, other than an increase or decrease in the Prime Rate, you will receive
advance notice and a right to opt out in accordance with applicable law.
OTHER IMPORTANT INFORMATION
Lost or Stolen Cards: If your card is lost or stolen, or if you think your Account is being used without your
permission, you must notify us immediately at 800.788.4578.
Cancellation: You may cancel this Agreement any time for any reason. If you do cancel, you must notify
us and destroy all cards and/or access checks or other credit devices we have issued for the Account. We
may also cancel or suspend your Account or otherwise terminate your right to use this Account at any time
for any reason. You must destroy all of the cards and/or access checks or other credit devices that we have
issued as soon as this happens. Even though the Account is canceled, you are still liable for all purchases,
advances and charges made on the Account.
Transactions after Your Account Is Closed: When your Account is closed, it is your responsibility to contact
anyone authorized to charge transactions to your Account, such as health clubs, cell phone providers or
insurance companies. These transactions may continue to be charged to your Account until you change

Change Your Address: You must notify us when you change your address. In order to keep accurate records
on your Account, we must have current address and telephone number information for the Account that you
have with us. We may also receive this information via the postal service or from other sources. When you
change your address or telephone numbers, you must notify us promptly of that information.
Visa Account Updater (VAU): When your Account number or card expiration date changes, participating
merchants will have access to your updated card information to prevent the interruption of future
payments. Merchants are not required to participate in VAU, so notification to your merchants is
recommended. If you wish to opt out of this service, contact Priority Service at 800.788.4578.
Governing Law: This Agreement is governed by the laws of the state of Washington (without regard to its
conflict of laws principles) and by any applicable federal laws.
YOUR BILLING RIGHTS (KEEP THIS DOCUMENT FOR FUTURE USE)
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement:
If you think there is an error on your statement, write us at Washington Trust Bank, Attn: Credit Card

Services, P.O. Box 2127, Spokane, WA 99210-2127.
Write to us as soon as possible. We must hear from you no later than 60 days after we sent you the first bill
on which the error or problem appeared. You can telephone us, but doing so will not preserve your rights.
In Your Letter, Provide the Following Information:
• Account information: Your name and Account number
• Dollar amount: The dollar amount of the suspected error
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong
and why you believe it is a mistake.
You Must Contact Us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on
the amount you think is wrong.
• You must notify us of any potential errors in writing. You may call us, but if you do we are not required
to investigate any potential errors and you may have to pay the amount in question.
What Will Happen after We Receive Your Letter:
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell
you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we
believe the bill is correct.
While We Investigate Whether or Not There Has Been an Error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on
that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your
balance.
• We can apply any unpaid amount against your credit limit.
After We Finish Our Investigation, One of Two Things Will Happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees
related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with
applicable interest and fees. We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling
us that you still refuse to pay. If you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter is settled between us.
Your Rights If You Are Dissatisfied with Your Credit Card Purchases:
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you
have tried in good faith to correct the problem with the merchant, you may have the right not to pay the
remaining amount due on purchase. To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing
address; and the purchase price must have been more than $50.00. (NOTE: Neither of these are
necessary if your purchase was based on an advertisement we mailed to you, or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an
ATM or with the check that accesses your credit card Account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at
Washington Trust Bank, Attn: Credit Card Services, P.O. Box 2127, Spokane, WA 99210-2127.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our
investigation, we will tell you our decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
Information about the rates and fees of the card described in this Agreement are accurate as of the date
of printing, October 2019. This information may have changed after that date. To find out what may have
changed, call us at 800.788.4578, or write to us Washington Trust Bank, Attn: Credit Card Services, P.O. Box
2127, Spokane, WA 99210-2127. Visa is a registered trademark of Visa International Service Association
and is used by the issuer pursuant to license from Visa U.S.A. Inc.

19-BWPS-21438 9/19

